                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                400 ARMY NAVY DRIVE 

                           ARLINGTON, VIRGINIA 22202-4704 




                                                                                FED 26 2009
MEMORANDUM FOR DISTRIBUTION


SUBJECT: Assessment of the Planning and Implementation for the American Recovery
         and Reinvestment Act of2009 (Project No, D2009-DOOOFH-0167.000)

       We will begin the subject assessments in March 2009. We are conducting these
assessments to determine whether the Department of Defense and its Components are
planning and implementing Public Law 111-5, the American Recovery and Reinvestment
Act of2009, by meeting the requirements in the Recovery Act, the Office of
Management and Budget Memorandum M-09-10, the Initial Implementing Guidance for
the American Recovery and Reinvestment Act of 2009, and subsequent related guidance.
We will first assess the planning phase, and second, assess the implementation phase for
the Department of Defense and the Components.
      We will perform the assessments at various offices within the Department of
Defense and its Components. We may identify additional locations during our work.
        Please provide points of contact for the assessment in writing. The points of
contact must be Government employees, either a GS-15 or pay band equivalent, or the
military equivalent. Please send the contact's name, title, grade/pay band, phone number,
and e-mail address by mail, by fax (703) 601.        (DSN 329.       , or bye-mail to
           @dodig.mil.
        You can obtain information about the Department of Defense Office of Inspector
General from DoD Directive 5106.01, "Inspector General of the Department of Defense,"
April 13,2006, change 1, September 25, 2006; DoD Instruction 7600.02, "Audit
Policies," April 27, 2007; and DoD Instruction 7050.3, "Access to Records and
Information by the Inspector General, Department of Defense," April 24, 2000. Our
Web site address is: www.dodig.mil.



                                f~ Q.!l1~
                               Patricia A. Marsh, CPA 

                             Assistant Inspector General 

                             Defense Business Operations 

DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
 LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
 OFFICER
ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
 AND COMPTROLLER)
DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE LOGISTICS AGENCY
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
COMMANDING GENERAL, U.S. ARMY CORPS OF ENGINEERS
